T/

APPENDIX A
(DECISION OF THE U.S. COURT OF APPEALS,FIFTH CIRCUIT)

I

Case: 19-10456

Document: 00515290389

Page: 1

Date Filed: 01/29/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10456
A True Copy
Certified order issued Jan 29, 2020

WILBERT ROMON BANKS

W. C(Mju
Clerk, IT.S. Court of Appeals, Fifth Circuit

Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeals from the United States District Court
for the Northern District of Texas

ORDER:
Wilbert Romon Banks, Texas prisoner # 1750119, seeks a certificate of
appealability (COA) to appeal the district court’s denial of his Federal Rule of
Civil

Procedure

60(b)(1)

and

60(b)(6)

motion

and

his

motion

for

reconsideration. He is also seeking to proceed in forma pauperis (IFP) on
appeal. In his motions, Banks sought to set aside the district court’s judgment
denying his 28 U.S.C. § 2254 habeas petition challenging his guilty plea
conviction for capital murder for which he received a sentence of life
imprisonment without parole.
Banks argues that the district court erred in denying his Rule 60(b)
motion as untimely and in denying the motion for reconsideration by failing to

Case: 19-10456

Document: 00515290389

Page: 2

Date Filed: 01/29/2020

No. 19-10456
consider that the dismissal of his claim of ineffective assistance of counsel
based on the procedural bar resulted in a miscarriage of justice.
Because Banks is arguing that the district court erred in dismissing his
petition based on the procedural bar, he is attacking “some defect in the
integrity of the federal habeas proceedings,” and, thus, his motion is a true
Rule 60(b) motion, and he must obtain a COA in order to appeal the denial of
the motion. See Gonzalez v. Crosby, 545 U.S. 524, 532 (2005).
When the district court denies a habeas petition on procedural grounds

i

without reaching the prisoner's underlying constitutional claim, as here, a
COA should issue only when the prisoner shows at least, that jurists of reason
would find it debatable whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.”

Slack v.

McDaniel, 529 U.S. 473, 484 (2000).
Banks has not made the requisite showing. His motion for a COA is
DENIED. Banks’s motion to proceed IFP on appeal is also DENIED.

\

/

2

KURT D. EN^ELHARDT
UNITED STATES CIRCUIT JUDGE

%

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION

WILBERT ROMON BANKS,

§
§
§
§

Petitioner,
v.

§

LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

*

Civil Action No. 2:14-CV-251-D

§
•§
§
§
§
§

ORDER
Petitioner Wilbert Romon Banks’s (“Banks’s”) April 19, 2019 pro se motion to proceed
in forma pauperis on appeal is denied.
Banks seeks leave to proceed in forma pauperis on appeal from this court’s March 27,
2019 memorandum opinion and order denying his motion for relief from final judgment under
Fed. R. Civ. P. 60(b). The court certifies, however, that any appeal would not be taken in good
faith. See 28 U.S.C. § 1915(a)(3); Fed. R. App. P. 24(a)(3). In support of this finding, the court
adopts and incorporates by reference the court’s memorandum opinion and order. See Baugh v.
Taylor, 117 F.3d 197, 202 n.21 (5th Cir. 1997). Based on the memorandum opinion and order,
the court concludes that any appeal of the denial of Banks’s Rule 60(b) motion would present no
legal point of arguable merit and would therefore be frivolous. See Howard v. King, 707 F.2d
215, 220 (5th Cir. 1983).
Banks has 30 days to challenge a denial of in forma pauperis status directly to the United
States Court of Appeals for the Fifth Circuit by filing a separate motion to proceed in forma

RECEIVED
AUG 1 7 2020
SUPBEM°Fp?«»£Lffy

pauperis on appeal with the Clerk of Court, U.S. Court of Appeals for the Fifth Circuit. In the
event Banks pursues pauper status directly with the Fifth Circuit, the filing fee for an appeal is
$505.00.
In accordance with Baugh, the court assesses and directs Banks to pay an initial partial
filing fee of $2.00. This sum shall be deducted by Banks’s institution from his institutional trust
fund account and forwarded to this Court (if no such funds are available, the institution shall
place a hold on the account in this amount and forward the funds when available).
Banks shall pay the balance of the appeal fee in monthly installments, as provided in 28
U.S.C. § 1915(b)(2), as funds become available in his institutional trust fund account.
Banks’s custodial institution shall deduct each month twenty percent (20%) of the
preceding month’s income credited to Banks’s inmate trust account and forward payments to the
district court, provided the account exceeds $10.00, until the $505.00 appeal fee is paid, pursuant
to 28 U.S.C. § 1915(b)(2).
If Banks moves the United States Court of Appeals for the Fifth Circuit to proceed on
appeal in forma pauperis, the clerk of this court shall mail a copy of this order to the inmate
account office or any other person or entity with responsibility for collecting and remitting to the
district court interim filing payments on behalf of prisoners, as designated by the facility in
which the prisoner is currently or subsequently confined.
SO ORDERED.
April 25, 2019.

SIDNEY A. FITZWA'
SENIOR JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
WILBERT ROMON BANKS,
Petitioner,

§
§
§
§

§

v.

LORIE DAVIS, Director,
~
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

Civil Action No. 2:14-CV-251-D

§
§
§
§
§
§

ORDER
Petitioner Wilbert Romon Banks’s (“Banks’s”) April 19, 2019 pro se motion for
reconsideration of the court’s memorandum opinion and order denying his motion for relief from
final judgment under Fed. R. Civ. P. 60(b) is denied.
Banks has not shown that the court’s March 27, 2019 memorandum opinion and order
contains any manifest error of law or fact. See, e.g., Reneker v. Offill, 2012 WL 3599231, at *1
n.l (N.D. Tex. Aug. 22, 2012) (“Motions for reconsideration have a narrow purpose and are only
appropriate to allow a party to correct manifest errors of law or fact Or to present newly
discovered evidence.” (Fitzwater, C.J.) (citation omitted)).

Accordingly, the motion for

reconsideration is denied.
SO ORDERED.
April 25, 2019.
vA

<—

SIDNEY A. FITZWA
SENIOR JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
WILBERT ROMON BANKS,
Petitioner,

§
§
§
§

§

v.

Civil Action No. 2:14-CV-251-D

§

LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

- -4
§
§
§
§

MEMORANDUM OPINION
AND ORDER
Petitioner Wilbert Romon Banks (“Banks”) moves for relief from judgment under
Fed. R. Civ. P. 60(b). For the reasons that follow, the court denies the motion.
I
The court will confine its discussion of the background facts and procedural history
to those that relate directly to Banks’s motion. In October 2011 Banks pleaded guilty to a
texaS indictment thatThcluded the offense of capital murder. The state trial court accepted
Banks’s plea, entered a judgment of conviction against him, and sentenced him. to life
without the possibility of parole. Proceeding pro se, Banks pursued a direct appeal, which
the state intermediate appellate court dismissed based on an appeal waiver.1 Banks then filed
a pro se state habeas corpus petition, which the Texas Court of Criminal Appeals denied

^anks did not file a petition for discretionary review with the Texas Court of
Criminal Appeals.

without a written order on the findings of the trial court, and without a hearing.
In December 2014 Banks filed a pro se federal habeas corpus petition in this court,
alleging the following three claims of ineffective assistance of trial counsel: (1) counsel told
him he would have 30 days to withdraw his guilty plea; (2) counsel coerced him into waiving
a jury trial by informing him that he would face a predominantly white jury that would
convict him-solely based on his race; and-(3) counsel failed to challenge the racial make-up
of the grand and petit juries. The magistrate judge recommended that Banks’s habeas
petition be denied on the merits on claim one, as unexhausted in the Texas Court of Criminal
Appeals on claim two (and therefore procedurally barred), and as waived on claim three.
Banks requested and received two extensions of tune in which to file objections to the
magistrate judge’s report and recommendation. In the order granting the second extension
of time, Banks was admonished that no further extensions would be granted. Banks failed
to file objections by the court-ordered deadline. Having received no objections, Judge
Robinson adopted the magistrate judge’s report and recommendation and denied Banks’s
habeas application. Banks did not take a timely appeal.
On November 5,2018, almost one year after judgment was entered in this case, Banks
filed the instant Rule 60(b) motion, alleging that his failure to file objections to the magistrate
judge’s report and recommendation was justified by excusable neglect, and that his attorney’s
advice that he plead guilty to avoid being tried by an all-white jury who would automatically
convict him because of his race resulted in a miscarriage of justice. In conjunction with his
Rule 60(b) motion, Banks also filed objections to the magistrate judge’s report and
-2-

recommendation, in which he contends that the magistrate judge’s determination that the
court was procedurally barred from considering the merits of Banks s second ineffective
assistance of counsel claim is contrary to the decisions of the Supreme Court of the United
States in Trevino v. Thaler, 569 U.S. 413 (2013), and Martinez v. Ryan, 566 U.S. 1 (2012).
II
A

'-Tv

Under Rule 60(c)(1), any “motion under Rule 60(b) must be made within a
reasonable time,” unless good cause can be shown for the delay. In re Edwards, 865 F.3d
197, 208 (5th Cir. 2017) (citing In re Osborne, 379 F.3d 277, 283 (5th Cir. 2004)). “Good
cause” for a reasonable delay must be “evaluated on a case-by-case basis.” Id. (quoting In
re Osborne, 379 F.3d at 283). “The timeliness of the motion is measured as of the point in
time when the moving party has grounds to make such a motion, regardless of the time that
has elapsed since the entry of judgment.” First RepublicBank Fort Worth v. Norglass, Inc.,
958 F.2d 117,120 (5th Cir. 1992). “Once a party has grounds to make a Rule 60(b) motion,
. . . he must bring the motion reasonably promptly, though ‘the determination of
reasonableness is less than a scientific exercise.’” In re Edwards, 865 F.3d at 208-09
(quoting First RepublicBank Fort Worth, 958 F.2d at 121). When the moving party has
failed to appeal the judgment challenged in the Rule 60(b) motion, “the usual time period for
direct appeal presumptively delimits, as a matter of law, the ‘reasonable time’ contemplated
by Rule 60[(c)].” Pryor v. U.S. Postal Serv., 769 F.2d 281, 288 (5th Cir. 1985); see also
Groden v. Allen, 2009 WL 1437834, at *1 (N.D. Tex. Mar. 31,2009) (Ramirez, J.) (holding
-3-

Rule 60(b) motion to be untimely under Rule 60(c) when petitioner filed it outside the time
for appeal and failed to show good cause for the delay), rec adopted, 2009 WL 1437834, at
*1 (N.D. Tex. May 22, 2009) (Fitzwater, C.J.). “Rule 60(b) simply may not be used as an
end run to effect an appeal outside the specified time limits, otherwise those limits become
essentially meaningless.” Pryor, 769 F.2d at 288.

The judgment in this case was entered on November 8, 2017. Banks inexplicably
waited almost an entire year before filing his Rule 60(b) motion seeking relief from the
judgment. Although Banks contends that he failed to timely object to the magistrate judge s
report and recommendation because he was unable to communicate with another inmate who
possessed some of his legal documents after that inmate was unexpectedly transferred to
another unit on November 16,2016, he provides no explanation for his failure to timely file
his Rule 60(b) motion.2 Nor can the court on its own discern any valid basis for the delay.
In his Rule 60(b) motion, Banks contends that “[i]t would constitute a travesty and
egregious compromise of justice” if his guilty plea—which he allegedly entered based on his
attorney’s advising him that he would be tried by a jury of all white jurors who would

2 Assuming arguendo that Banks intended to rely on the transfer of his fellow inmate
as a justification for the delay in filing his Rule 60(b) motion, the court concludes that neither
the inability to confer with a fellow inmate regarding legal strategy nor the inability to access
unidentified “legal documents” that predate the court’s judgment by nearly one year
constitutes good cause for an unreasonable delay in filing a Rule 60(b) motion.
-4-

automatically convict him because of his race—were allowed to stand.3 P. Mot. at 2-3. This
ground for relief, however, was available to Banks at the time he initially filed his federal
habeas petition. In that petition, filed on December 12, 2014, Banks asserted a claim for
ineffective assistance of counsel based on his trial counsel’s “coerc[ing] [him] into waiving
his right to a jury trial by informing [Banks] that his jury would be made up of white people
who don’t like black men and would convict [Banks] solely based on his race,” Pet. at 6.
There is no reason why Banks could not have timely filed a Rule 60(b) motion based on this
ground.
To the extent that Banks bases his Rule 60(b) motion on the contention, advanced in
his instant objections to the magistrate judge’s report and recommendation, that the court
failed to correctly apply Martinez and Trevino in concluding that Banks ’ s second ineffective
assistance of counsel claim was time-barred, Banks raised this argument in his traverse to the
answer, which he filed on May 26, 2015. See Traverse at 6-7 (contending that second
ineffective assistance of counsel claim was not procedurally barred under Trevino and
Martinez). He has provided no reason why he could not have filed a Rule 60(b) motion
based on this same ground within a reasonable amount of time after the court entered
judgment in this case.
In sum, Banks has not presented any Valid excuse for belatedly filing his Rule 60(b)

because the court concludes that Banks’s Rule 60(b) motion is untimely, it does not
address whether this ground of his motion would be barred under 28 U.S.C. § 2244 as a
successive habeas petition.
-5-

motion. To the contrary, it appears that he is impermissibly attempting to use Rule 60(b) to
remedy his own failure to file a timely appeal of the judgment against him based on legal
arguments of which he has long been aware. The court concludes that Banks’s nearly oneyear delay in filing his Rule 60(b) motion was not reasonable under the circumstances of this
case, and that Banks has failed to provide the court with good cause for the delay.4
Accordingly, the comt dismisses Banks’s Rule 60(b).motion as untimely.
III
Considering the record in this case and pursuant to Fed. R. App. P. 22(b), Rule 11(a)
of the Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c), the court
denies a certificate of appealability. The court adopts and incorporates by reference the
magistrate judge’s findings, conclusions, and recommendation filed in this case in support
of its finding that the petitioner has failed to show (1) that reasonable jurists would find this

4Rule 60(c) provides: “[a] motion under Rule 60(b) must be made within a reasonable
time—and for reasons (1), (2), and (3) no more than a year after the entry of the judgment
or order or the date of the proceeding.” (emphasis added). In his Rule 60(b) motion, Banks _—
contends that his failure to timely file objections to the magistrate judge’s report and
recommendation was the result of “excusable neglect,” which is a ground for relief under
Rule 60(b)(1). Even if the court were to assume arguendo that Banks’ s “excusable neglect”
ground for relief under Rule 60(b) is timely—it was filed just three days shy of one year after
the entry of judgment—the court nonetheless denies Banks’s motion on this ground. As
explained above, see supra note 2, neither the inability to confer with a fellow inmate
regarding legal strategy nor the inability to access unidentified “legal documents” that
predate the court’s judgment by nearly one year constitutes “excusable neglect” sufficient
to justify relief under Rule 60(b)(1). See, e.g., Birl v. Estelle, 660 F.2d 592, 593 (5th Cir.
Nov. 1981) (“The burden of establishing excusable neglect is upon [the movant], even one
proceeding pro se. Our circuit’s rule is that the excusable neglect standard is a strict one,
requiring more than mere ignorance[.]” (citations omitted)).
-6-

court’s “assessment of the constitutional claims debatable or wrong,” or (2) that reasonable
jurists would find “it debatable whether the petition states a valid claim of the denial of a
constitutional right” and “debatable whether [this court] was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
If petitioner files a notice of appeal,
()

petitioner may proceed in forma pauperis on appeal.

-

(X)

petitioner must pay the $505.00 appellate filing fee or submit a motion to
proceed in forma pauperis.
*

Accordingly, Banks’s November 5, 2018 motion for relief from final judgment
pursuant to Rule 60(b) is denied.
SO ORDERED.
March 27, 2019.

SENIOR JUDGE

-7 -

%

V

V k

f
V'

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
WILBERT ROMON BANKS,
Petitioner,
v.
WILLIAM STEPHENS, Director,
Texas Department of Criminal
Justice, Correctional Institutions
Division,
Respondent.

§
§
§
§ Civil Action No. 2U4-CV-251
§ (Referred to U.S. Magistrate Judge)
§
§
§
§
§

RESPONDENT STEPHENS’S ANSWER WITH BRIEF IN SUPPORT
Petitioner Wilbert Romon Banks was convicted and sentenced by a
4
,
Texas state court to life imprisonment for capital murder. The petition
should be denied because the; claims are unexhausted and procedurally
barred or without merit.
JURISDICTION
Banks seeks habeas corpus relief in this Court pursuant to 28 U.S.C.
§ 2254, which provides the Court with jurisdiction over the subject matter
and the parties as Banks was convicted within this Court’s jurisdiction.

PETITIONER’S ALLEGATIONS
The Director understands Banks to allege the following grounds for
relief
1.

Trial counsel’s ineffective assistance rendered his guilty plea
involuntary because counsel incorrectly advised Banks that he
would have thirty days to withdraw his guilty plea.

2.

He received ineffective assistance of trial counsel because counsel
coerced him into waiving his right to a jury trial.

3.

He received ineffective assistance of trial counsel because counsel
refused to challenge the absence of fairness in the composition of
grand and petit jury pools in Randall County.

Fed. Petition at 6-7.
GENERAL DENIAL
The Director denies all of Banks’s assertions of fact except those
supported by the record or specifically admitted herein. ‘
STATEMENT OF THE CASE
Banks challenges the Director’s custody of him pursuant to the
judgment and sentence of the 181st District Court of Randall County, Texas,
in cause no. 20617-B. CR at 314-16.1 Banks was charged by indictment with
the offense of capital murder with a previous felony conviction alleged for
enhancement at punishment. IcL at 7. Pursuant to a plea bargain agreement,
1 CR refers to the Clerk’s Record of pleadings and documents filed with the trial
court. “SHCR” refers to the written pleadings contained within Ex parte Banks, No.
81,900-01.

2

Banks entered a plea of guilty in exchange for the State’s recommendation to
the court that he be sentenced tb life imprisonment without the possibility of
parole and that the enhancement be waived. Id. at 305-06. On October 26,
2011, the court accepted Banks’s plea of guilty and sentenced him to the
recommended sentence of life without possibility of parole. Id. at 314-15.
Pursuant to his plea bargain agreement, Banks also waived his right to
appeal. CR at 311-12. However, Banks appealed from this judgment; and on
February 22, 2012, the Seventh Court of Appeals of Texas dismissed the
appeal. Banks v. State, No. 07-11-00512-CR, 2012 WL 569607 (Tex. App.—
Amarillo 2012, no pet.). Banks did not file a petition for discretionary review.
Exhibit A.
Subsequently, Banks filed a state application for writ of habeas corpus
collaterally attacking this conviction. SHCR at 5. On August 27, 2014, the
Texas Court of Criminal Appeals denied the application without written
order on the findings of the trial court without hearing. Id. at cover sheet.
This proceeding followed on December 12, 2014. Fed. Petition at 1.
RECORDS
Records of Banks’s state court proceedings were filed with the Court on
February 19, 2015. ECF No. 13.

3

LEVUTATIONS/EXHAUSTION/SUCCESSIVE PETITION
The Director believes that Banks has exhausted his state court
remedies on the above claims, except as argued below. The Director reserves
the exhaustion defense, and additional affirmative defenses, should Banks
disagree with the Director’s construction of the claim presented.

The

Director believes the petition is neither subject to the successive petition bar,
28 U.S.C. § 2244(b), nor barred by limitations, 28 U.S.C. § 2244(d).
ANSWER
I.

Standard of Review
Banks’s petition is governed by the standard of review provided by the

Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA). 28 U.S.C. §
2254; Lindh v. Murphy, 521 U.S. 320, 336 (1997) (holding AEDPA only
applies to those noncapital habeas corpus cases filed after its effective date of
April 24, 1996). Under 28 U.S.C. § 2254(d), a federal court may not issue a
writ of habeas corpus for a defendant convicted under a state judgment
unless the adjudication of the relevant constitutional claim by the state court,
(1) ‘“was contrary to’ federal law then clearly established in the holdings of’
the Supreme Court; or (2) “‘involved an unreasonable application of” clearly
established Supreme Court precedent; or (3) “‘was based on an unreasonable
determination of the facts’ in light of the record before the state court.”
Harrington v. Richter, 131 S. Ct. 770, 785 (2011) (quoting (Terry) Williams v.

4

Taylor, 529 U.S. 362, 412 (2000)); 28 U.S.C. § 2254(d). Review of a state
court’s decision “is limited to the record that was before the state court that
adjudicated the claim on the merits.” Cullen v. Pinholster, 131 S. Ct. 1388,
1398-99 (2011).
The Supreme Court has explained that a state court decision is
“contrary” to established federal law if the state court “applies a rule that
contradicts the governing law set forth in [the Supreme Court’s] cases,” or
confronts facts that are “materially indistinguishable” from a relevant
Supreme Court precedent, yet reaches an opposite result. Williams, 529 U.S.
at 405'06. And a “run-of-the-mill” state court decision applying the correct
Supreme Court rule to the facts of a particular case is to be reviewed under
the “unreasonable application” clause.

Williams, 529 U.S. at 406. To this

end, a state court unreasonably applies Supreme Court precedent only if it
correctly identifies the governing precedent but unreasonably applies it to the
facts of a particular case. Id. at 407-09. And in order to determine if the
state court made an unreasonable application, a federal court “must
determine what arguments or theories supported or . . . could have
supported, the state court’s decision! and then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories
are inconsistent with the holding in a prior decision of this Court.” Richter,
131 S. Ct. at 786 (emphasis added). Indeed, this is the “only question that
5

matters under § 2254(d)(1).” Id.
Thus, a state court’s determination that a claim lacks merit precludes
federal habeas relief so long as ‘fairminded jurists could disagree’” on the
correctness of the state court’s decision. Richter, 131 S. Ct. at 786 (quoting
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)); see also Woodford v.
Visciotti, 537 U.S. 19, 27 (2002) (federal habeas relief is only merited where
the state-court decision is both incorrect and objectively unreasonable,
whether or not [this Court] would reach the same conclusion”). Moreover,
‘Devaluating whether a rule application was unreasonable requires
considering the rule’s specificity. The more general the rule, the more leeway
courts have in reaching outcomes in case-by-case determinations.” Alvarado,
541 U.S. at 664. This is particularly true when reviewing a state court’s
application of Strickland v. Washington, 466 U.S. 668 (1984), which when
analyzed in conjunction with § 2254(d), creates a difficult to surmount,
“doubly” deferential assumption in favor of the state court denial. Richter,
131 S. Ct. at 786.
It bears repeating that even a strong case for relief does not mean the
state court’s contrary conclusion was unreasonable.” Richter, 131 S. Ct. at
786.

If this standard is difficult to meet, that is because it was meant
to be. As amended by AEDPA, § 2254(d) stops short of imposing
a complete bar on federal court relitigation of claims already
6

rejected in state proceedings. It preserves authority to issue the
writ in cases where there is no possibility fairminded jurists
could disagree that the state court’s decision conflicts with this
Court’s precedents. It goes no farther. Section 2254(d) reflects
the view that habeas corpus is a “guard against extreme
malfunctions in the state criminal justice systems,” not a
substitute for ordinary error correction through appeal.
Id. (emphasis added) (internal citations omitted).
Moreover, it is the state court’s “ultimate decision” that is to be tested
for unreasonableness, and not every jot of its reasoning. Neal v. Puckett, 286
F.3d 230, 246 (5th Cir. 2002) (en banc); Santellan v. Cockrell, 271 F.3d 190,
193 (5th Cir. 2001); see also Catalan v. Cockrell, 315 F.3d 491, 493 (5th Cir.
2002) (“. . . we review only the state court’s decision, not its reasomng or
written opinion
the law.

”). Indeed, state courts are presumed to know and follow

Visciotti, 537 U.S. at 24. And, even where the state court fails to

cite to applicable Supreme Court precedent or is unaware of such precedent,
AEDPA s relitigation bar nevertheless applies “so long as neither the
reasoning nor the result of the state-court decision contradicts [Supreme
Court precedent].” Early v. Packer, 537 U.S. 3, 8 (2002); Richter, 131 S. Ct.
at 786.
If the Supreme Court has not “broken sufficient legal ground to
establish [a] . . . constitutional principle, the lower federal courts cannot
themselves establish such a principle with clarity sufficient to satisfy the
AEDPA bar” under either the contrary to or unreasonable application

7

■

standard. Williams, 529 U.S. at 381. Stated differently:
As a condition for obtaining habeas corpus from a federal
court, a state prisoner must show that the state court’s ruling on
the claim being presented in federal court was so lacking in
justification that there was an error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.
Richter, 131 S. Ct. at 786-87 (emphasis added). And a federal court must be
wary of circumstances in which it must “extend a [legal] rationale” of the
Supreme Court before it can apply to the facts at hand . . .” because such a
process suggests the proposed rule is not clearly established. Alvarado, 541
U.S. at 666.
AEDPA also provides that the state court’s factual findings “shall be
presumed to be correct” unless the petitioner carries “the burden of rebutting
the presumption of correctness by clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1).

“The presumption of correctness not only applies to explicit

findings of fact, but it also applies to those unarticulated findings which are
necessary to the state court’s conclusions of mixed law and fact.”
Cockrell, 274 F.3d 941, 948 n.ll (5th Cir. 2001).

Valdez v.

Here, Judge Board was

ideally suited to make the credibility determinations necessary to resolve
Banks s habeas claims as he was also the trial judge.
[W]hen a state trial judge is also the judge hearing the state
habeas claim, that judge is in an optimal position to assess the
credibility of the affidavits. This true because the state judge had
the benefit of observing the witnesses and attorneys and hearing
8

testimony at trial. The state trial judge could make credibility
determinations based on the demeanor of the witnesses he heard
at trial, without holding a separate hearing to take live testimony
from the witnesses.
Baldree v. Johnson, 99 F.3d 659, 663 (5th Cir. 1996) (citing Buxton v. Collins,
879 F.2d 140, 146 (5th Cir. 1989)). Thus, because the trial court had the
opportunity for personal observation of defense counsel, the fact-finding
procedure employed in Banks’s case was more than sufficient to entitle the
state courts’ findings to the presumption of correctness.
And except for the narrow exceptions contained in § 2254(e)(2), the
evidence upon which a petitioner would challenge a state court fact finding
must have been presented to the state court. Because a federal habeas court
is prohibited from granting relief unless a decision was based on “an
unreasonable determination of the facts in light of the evidence presented in
the state court proceeding,” it follows that demonstrating the incorrectness of
a state court fact finding based upon evidence not presented to the state court
would be of no avail to a habeas petitioner. 28 U.S.C. § 2254(d)(2).
Moreover, an evidentiary hearing is precluded unless (l) a petitioner’s
claims rely on a new rule of constitutional law or a factual predicate
previously undiscoverable through the exercise of due diligence; and (2) the
petitioner establishes by clear and convincing evidence that, but for
constitutional error, no reasonable factfinder would have found him guilty.

9

28 tr.S.C. § 2254(e)(2). A failure to meet this standard of “diligence” will bar
a federal evidentiary hearing in the absence of a convincing claim of actual
innocence that can only be established by newly discovered evidence.
(Michael) Williams v. Taylor, 529 U.S. 420, 436 (2000).

For example, a

petitioner who does not present controverted, previously unresolved factual
issues to the state court is sufficient to constitute “failure” under the plain
meaning of § 2254(e)(2). Id. at 433. However, § 2254(e)(2) has “force [only]
where § 2254(d)(1) does not bar federal habeas relief.” Pinholster, 131 S. Ct.
at 1401. Accordingly, even if a petitioner can leap the § 2254(e)(2) hurdle,
“evidence introduced in federal court has no bearing on § 2254(d)(1) review.”
Id. at 1400. And whatever discretion remains after Pinholster to hold an
evidentiary hearing, it still remains appropriate to deny such a hearing if
sufficient facts exist to make an informed decision on the merits. Schriro v.
Landrigan, 550 U.S. 465, 474-75 (2007).
Finally, pre-AEDPA precedent forecloses habeas relief if a claim (l) is
procedurally barred as a consequence of a failure to comply with state
procedural rules, Coleman v. Thompson, 501 U.S. 722 (1991); (2) seeks
retroactive application of a new rule of law to a conviction that was final
before the rule was announced, Teague v. Lane, 489 U.S. 288 (1989); or (3)
asserts trial error that, although of constitutional magnitude, did not have a

10

substantial and injurious effect or influence in determining the jury’s
verdict.
II.

Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (citation omitted).

Banks’s Guilty Plea was Entered Voluntarily, Knowingly and
Intelligently, with an Understanding of the Nature of the Charges and
Consequences of the Plea.
In his first ground for relief, Banks contends his plea of guilty was

involuntary due to trial counsel’s ineffective assistance.1 Fed. Petition at 6.
Contrary to Banks s allegation, his guilty plea was entered voluntarily,
knowingly, and intelligently.
A plea of guilty must be knowing and intelligent, and for it to be
constitutional the defendant must understand the nature of the charges and
the consequences of the plea. Grabowski v. Hargett, 47 F.3d 1386, 1389 (5th
Cir. 1995). Understanding the consequences of a plea requires only that the
petitioner know the maximum prison term and fine for the charged offense.
James v. Cain, 56 F.3d 662, 666-67 (5th Cir. 1995) (citing Spinelli v. Collins,
992 F.2d 559, 561 (5th Cir. 1993)). Formal declarations in open court carry a
strong presumption of truth. Blackledge v. Allison, 431 U.S. 63, 74 (1977).
The

subsequent

presentation

of conclusory

allegations

which

are

unsupported by specifics is subject to summary dismissal.” Id. Similarly,
official state court records are entitled to a presumption of regularity as well

1 Banks s claim of ineffective assistance of counsel is addressed in greater detail in
Section V below.
11

as a presumption of correctness on federal habeas review. Carter v. Collins,
918 F.2d 1198, 1202 n.4 (5th Cir. 1990); Hobbs v. Blackburn, 752 F.2d 1079,
1081-82 (5th Cir. 1985).
Here, the record is clear that Banks’s guilty plea was voluntary,
knowing, and intelligent. Before entering his plea, Banks signed detailed,
written plea papers which contained information regarding the range of
potential punishment attached to the offense charged as well as the
consequences of the plea.

CR at 305*310.

By signing these plea papers,

which included waivers, a judicial confession, and admonishments, Banks
acknowledged that he understood the admonishments, that he was aware of
the consequences of his plea, that he was mentally competent and was
entering his plea knowingly, freely, and voluntarily. Id. Trial counsel also
signed the plea papers and the court entered orders approving the
admonitions and waivers. Id.
Moreover, in denying relief on state habeas review, the state court
found that Banks’s guilty plea was freely, voluntarily, and knowingly made.
SHCR at cover sheet; 156. This finding is presumed correct in this forum and
compels rejection of Banks’s contentions to the contrary. 28 U.S.C. § 2254(e);
Marshall v. Lonberger, 459 U.S. 422, 433 (1983) (applying presumption of
correctness to implicit finding against the defendant’s credibility, where that
finding was necessarily part of the court’s rejection of the defendant’s claim);
12

Valdez v. Cockrell, 274 F.3d at 948 n.ll (presumption of correctness applies
to both explicit and implicit findings necessary to support a state court’s
conclusions of mixed law and fact). Both the implicit and explicit factual
findings and credibility determinations of the Court of Criminal Appeals are
entitled to a presumption of correctness which Banks has not rebutted with
the necessary clear and convincing evidence required by § 2254(e)(1).
Accordingly, Banks fails to demonstrate that the state court’s decision was an
unreasonable

application

of clearly

established federal

law

or

an

unreasonable application of the facts in light of the evidence presented.
Because Banks fails to overcome the relitigation bar contained within
AEDPA, any allegation that his guilty plea was involuntary must be denied.

m.

One of Banks s Claims is Unexhausted and Procedurally Barred.
In his second ground for relief, Banks asserts trial counsel rendered

ineffective assistance by coercing him into waiving his right to a jury trial!
specifically, Banks alleges trial counsel told him that his jury would be
composed of white people who would convict him solely based on his race.
Fed. Petition at 6. This claim was not raised on direct appeal or state habeas
review.2

See SHCR at 10-19.

Consequently, this claim is unexhausted.

2 Although Banks raised similar ineffective assistance of counsel claims in his state
writ application, the Director contends that is insufficient to exhaust the present
distinct claim. Cf. Jones v. Jones, 163 F.3d 285, 297-99 (5th Cir. 1998) (multiple,
distinct claims of ineffective assistance of counsel are separate claims for purposes
of exhaustion).
13

Because Banks would be cited for abuse of the writ if he were to return to
state court and file another application for state writ of habeas corpus, this
claim is also procedurally barred. See Neville v. Dretke, 423 F.3d 474, 480
(5th Cir. 2005) (unexhausted claim procedurally barred).
IV.

One of Banks’s Clai’ ns is Waived by his Valid Guilty Plea.
By entering a guilty plea, a defendant waives all non-jurisdictional

defects. Tollett v. Henderson, 411 U.S. 258, 267 (1973). Any challenge to a
conviction obtained by guilty plea is limited to issues concerning the
voluntariness of the plea, the defendant’s understanding of the charges
against him, and his understanding of the consequences of the plea. Hill v.
Lockhart, 474 U.S. 52, 56-57 (1985); Diaz v. Martin, 718 F.2d 1372, 1376-77
(5th Cir. 1983). A plea of guilty is more than a mere confession, it is “ an
admission that [the defendant! committed the crime charged against him.”
United States v. Broce, 4£8 U.S. 563, 570 (1989); Taylor v. Whitley, 933 F.2d
325, 327 (5th Cir. 1991) (citing North Carolina v. Alford, 400 U.S. 25, 32
(1970)). “A plea of guilty and the ensuing conviction encompass all of the
factual and legal elements necessary to sustain a binding, final judgment of
guilt and a lawful sentence.” Broce, 488 U.S. at 569. And a defendant waives
the right to challenge the effectiveness of counsel except as to alleged
ineffectiveness relating to the voluntariness of a guilty plea. Smith v. Estelle,
711 F.2d 677, 682 (5th Cir. 1983).
14

With respect to counsel’s actions occurring before or at the plea phase,
Banks contends counsel failed to challenge the absence of fairness in the
composition of the grand and petit jury pools in Randall County.

Fed.

Petition at 7. However, Banks has not shown that counsel’s actions caused
him to enter a plea of guilty without a full understanding of the nature of the
charges against him or the consequences of his plea. Grabowski, 47 F.3d at
1389, see Smith, 711 F. 2d at 682 (guilty plea waived ineffective assistance of
counsel claims related to counsel’s alleged failure to review the prosecutor’s
file to verify laboratory tests and to investigate witnesses and the legality of
defendant’s arrest).

Accordingly, this claim is waived and should be

dismissed with prejudice.
V.

Trial counsel rendered effective assistance.
Finally, Banks contends counsel was ineffective because he allegedly

misinformed Banks that he would have thirty days within which to withdraw
his guilty plea. Fed. Petition at 6. This claim is wholly without merit.
Because this is a federal court review of a state court judgment, Banks
has to overcome two highly deferential standards of review to obtain relief,
the first under Strickland and the second under AEDPA. Premo v. Moore,
131 S. Ct. 733, 740 (2011). First, the Supreme Court has held that the twoprong test enunciated in Strickland applies to cases involving guilty pleas.
See Hill v. Lockhart, 474 U.S. 52, 57-58 (1985).
15

Under Strickland, a

defendant must show that counsel’s performance was deficient and that the
deficient performance prejudiced the defense. Strickland\ 466 U.S. at 687. A
reviewing court may dispose of a claim if either counsel rendered reasonably
effective assistance or there was a lack of prejudice, and if one is found
dispositive, it is not necessary that the court address the other. Id. at 697.
In determining the merits of an alleged Sixth Amendment violation,
courts “must be highly deferential” to counsel’s conduct, and a petitioner
must show that counsel’s performance fell beyond the bounds of prevailing
objective professional standards.

Id. at 687-89. A reviewing court “must

strongly presume that trial counsel rendered adequate assistance and that
the challenged conduct was the product of

reasoned trial strategy,”

Wilkerson v. Collins, 950 F.2d 1054, 1065 (5th Cir. 1992), and every effort
must be made to eliminate the “distorting effects of hindsight.” Id. at 689.
Further, “[wlith regard to the first prong of the Strickland/Hill test, if a
defendant is represented by counsel and pleads guilty upon the advice of
counsel, the voluntariness of the plea depends on whether counsel’s advice
was within the range of competence demanded of attorneys in criminal
cases.” Armstead v. Scott, 37 F.3d 202, 206 (5th Cir. 1994) (internal citations
and quotations omitted).
Additionally, with respect to the second prong of the Strickland/Hill
test, Banks may not simply allege, but must “affirmatively prove” prejudice.
16

Strickland\ 466 U.S. at 693. In the guilty plea context, the requirement of
prejudice was interpreted to mean “that there is a reasonable probability
that, but for counsel s errors, he would not have pleaded guilty and would
have insisted on going to trial.” Hill, 474 U.S. at 59; see also Armstead, 37
F.3d at 206 (discussing how the assessment of prejudice depends, in part, on
a prediction of what the outcome of a trial might have been).
Second, Banks has to show that the state court’s adjudication of his
Strickland claim was unreasonable. Moore, 131 S. Ct. at 740. ‘“Establishing
that a state court’s application of Strickland was unreasonable under §
2254(d) is all the more difficult.’” Id. (quoting Richter, 131 S.Ct. at 788).
The question is whether there is any reasonable argument that counsel
satisfied Stricklands deferential standard.’” Id. at 740 (quoting Richter, 131
S.Ct. at 778).
Here, contrary to Banks’s allegations, the record establishes that trial
counsel did not improperly advise Banks with regard to his guilty plea, On
state habeas review, Banks filed “additional evidence” in support of his plain.
m the form of a letter sent to him by attorney Steven Denny. SHCR at 64-68.
Banks’s defense counsel, Maxwell Peck, submitted affidavits in response to
both Banks s state writ application as well as the letter from Attorney Denny
in which he thoroughly addressed Banks’s claim. Id. at 76-79.

17 •

In his initial affidavit, Peck stated that he and the rest of Banks s
defense team worked exhaustively to obtain a plea offer from the State. Id.
at 77.

Peck further explained that an offer for life without possibility of

parole was finally obtained, and Banks agreed to accept this offer. Id. Peck
emphasized that he never told Banks he would be able to withdraw his guilty
plea. Id. Specifically, Peck stated in relevant part: “Never at any time did I
tell him he could withdraw his guilty plea. I would never have done that
because it was simply not true, and would have undermined my efforts to
have Mr. Banks ‘locked in’ going into a plea, because it would only increase
the likelihood a plea agreement would fall apart in the courtroom.” Id. Peck
further noted it was not until after the plea agreement proceedings ended
that Banks expressed a desire to “take back his plea.” Id. at 78. At this point
in time, Peck explained to Banks his options with regard to the appellate
process, including filing a motion for new trial,

Id.

Additionally, Peck

reiterated, “At no time did I misinform Mr. Banks by telling him that he
could withdraw his plea of guilty in thirty days after he was sentenced.” Id.
at 79.

Subsequently, Peck submitted a second affidavit in which he

addressed the letter from Attorney Denny; specifically, Peck explained the
previous conversations he had with Denny and clarified that at no time prior
to the plea agreement did he tell Banks he had a right to withdraw his plea.
SHCR at 96-98. Based on this record, Banks wholly fails to demonstrate that
18

trial counsel was deficient with regard to this claim.

Nor does Banks

establish that but for counsel’s alleged errors, there is a reasonable
probability he would have insisted on going to trial instead of pleading guilty.
Moreover, in rejecting Banks’s claim on state habeas review, the trial
court found trial counsel rendered effective assistance with regard to this
claim.

Specifically, the trial court reviewed trial counsel’s affidavits and

deemed them more credible than Banks’s allegations, stating in relevant
part20. The Court has carefully reviewed that part of Max Peck’s
affidavit which addresses this issue as well as the supplemental
affidavit he submitted in response to Steve Denny’s letter. The
Court finds that Max Peck’s affidavits are more credible than the
representations of Steve Denny or of Applicant’s self'serving
allegations. More specifically, the Court finds that the negotiated
plea of guilty with the recommended sentence of life in prison
was the result of diligent investigation, assiduous legal research
and concern for the life of Applicant. The Court further finds
that defense counsel were faced with a difficult task in getting
their client to accept the severity of his situation and the need to
resolve the case without having to run the risk of a death
sentence, a very real probability with a Randall County jury.
21. The Court further finds that the defense team’s concern m
persuading Applicant of the merits of the plea offer was realistic
and eminently reasonable in light of the overwhelming evidence
of guilt and the horrific facts of the case. Further, the Court finds
that the defense team’s concern in persuading Applicant of the
merits of the plea offer was part and parcel of their joint
responsibility to Applicant when considering the legal and ethical
duties of capital defense counsel. The Court finds that defense
counsels’ efforts at securing Applicant’s firm consent to the plea
bargain through proper, correct legal advice was prudent and
reasonable.
19

22. The Court finds that Max Peck did not tell Applicant before
his entry of a guilty plea to the indictment that he could
withdraw the plea. The Court further finds that Steve Denny’s
suggestion to the contrary, as articulated in his February 23,
2012 letter to Applicant, is either mistaken, ill-informed or based
on insufficient knowledge of the circumstances leading up to
Applicant’s plea. The Court finds that Peck also provided correct
legal advice when he told Applicant prior to the guilty plea
hearing that he (Applicant) would not have the right to appeal
his case, provided the trial court approved the plea bargain which
everyone had agreed to. Further, the Court finds that Applicant
and Peck met and consulted after the plea and that at this
conference, Applicant had changed his mind and wanted to
withdraw his plea. The Court finds that Peck correctly advised
Applicant on the law as it pertained to a defendant’s desire to
withdraw a plea after the trial court has taken the case “under
advisement” or sentenced a defendant. The Court finds that Peck
offered his services to file a motion for new trial and notice of
appeal and further, that he was correct when he advised
Applicant that it was “very unlikely” that the trial court would
grant a motion for new trial on the basis of Applicant’s change of
heart concerning his negotiated plea bargain. The Court finds
that Peck correctly advised Applicant concerning the effect of his
having waived his right to appeal pursuant to the plea bargain.
The Court finds that at no time prior to Applicant’s counseled
plea of guilty to the indictment did Peck ever inform Applicant
that he could unilaterally withdraw his plea of guilty and proceed
to trial.
SHCR at 145-46 (emphasis in original).

The Court of Criminal Appeals

adopted these findings when it denied relief. Id. at cover. Both the implicit
and explicit findings of the Court of Criminal Appeals are entitled to a
presumption of correctness which Banks has not rebutted with the necessary
clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Neal, 239 F.3d at 696.
Banks has not shown that the state courts’ denial of relief with regard to this
20

claim was contrary to, or involved an unreasonable application of, clearly
established federal law as determined by the Supreme Court. Nor has he
shown that the state court decision was based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceedings. 28 U.S.C. § 2254(d). Therefore, because Banks fails to overcome
AEDPA s relitigation bar, his ineffective assistance of counsel claim must fail
and be denied as without merit.
CONCLUSION
For the foregoing reasons, the Director respectfully requests that the
petition for writ of habeas corpus be denied and dismissed.
Respectfully submitted,
KEN PAXTON
Attorney General of Texas
CHARLES E. ROY
First Assistant Attorney General
ADRIENNE MCFARLAND
Deputy Attorney General
for Criminal Justice
EDWARD L. MARSHALL
Chief, Criminal Appeals Division

*Attorney in Charge

s/ Kate E. Walker
KATE E. WALKER*
Assistant Attorney General
State Bar No. 24075236
P. 0. Box 12548, Capitol Station
21

Austin, Texas 78711
Tel. (512) 936-1400
Fax (512) 936-1280
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF SERVICE
A true and correct copy of the above and foregoing has been served by
placing it in the United States mail, postage prepaid, on April 1, 2015,
addressed toWilbert Romon Banks
TDCJ CID No. 1750119
TDCJ Eastham Unit
2665 Prison Road #1
Lovelady, TX 75851
s/ Kate E. Walker
KATE E. WALKER
Assistant Attorney General

22

r

i-

r

■*W •

\

Exhibit A
:•
v'i."

y

\

